<html>
<title> - A CONTINUING EXAMINATION OF CIVIL RIGHTS SERVICES AND DIVERSITY IN THE COAST GUARD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
         A CONTINUING EXAMINATION OF CIVIL RIGHTS SERVICES AND
                      DIVERSITY IN THE COAST GUARD
=======================================================================

                                (111-43)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             June 19, 2009
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
50-563 PDF                    WASHINGTON: 2009
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Dickerson, Terri A., Director, Office of Civil Rights, United 
  States Coast Guard; and Vice Admiral Clifford I. Pearson, Chief 
  of Staff, United States Coast Guard............................     5
Latta, Stephen B., Captain, USN Retired, Dean of Admissions, 
  United States Naval Academy....................................    27
Pearson, Vice Admiral Clifford I., Chief of Staff, United States 
  Coast Guard....................................................     5

                PREPARED STATEMENT BY MEMBER OF CONGRESS

Thompson, Hon. Bennie G., of Mississippi.........................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dickerson, Terri A...............................................    37
Latta, Stephen B.................................................    44
Pearson, Vice Admiral Clifford I.................................    57

                       SUBMISSION FOR THE RECORD

Dickerson, Terri A., Director, Office of Civil Rights, United 
  States Coast Guard, response to request for information........    12
Pearson, Vice Admiral Clifford I., Chief of Staff, United States 
  Coast Guard:

  Response to request for information............................    19
  Response to request for information............................    23
  Strategic Plan.................................................    66

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


   HEARING ON A CONTINUING EXAMINATION OF CIVIL RIGHTS SERVICES AND 
                      DIVERSITY IN THE COAST GUARD

                              ----------                              


                        Thursday, June 18, 2009,

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:37 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. The Subcommittee will come to order. Let me 
first of all say we were trying to make sure we did not run 
into super schedule problems by starting the hearing and then 
having a big pause. As it has turned out, the best plans don't 
always work. It appears that we are going to have a vote in 
about 20 minutes, maybe 30, but we should be able to move this 
hearing along with perhaps one break.
    The Subcommittee convenes today to continue its examination 
of civil rights services in the Coast Guard and of the Coast 
Guard's diversity initiatives. I note this hearing is being 
conducted as one of several hearings that meet the oversight 
requirements under clauses 2(n), (o), and (p) of Rule XI of the 
Rules of the House of Representatives.
    In April, I convened the Subcommittee to consider the Coast 
Guard's provision of civil rights services to its military and 
civilian workforce and to applicants for employment following 
the release of a report on the service's equal employment 
opportunity programs written by Booz Allen Hamilton.
    The Booz Allen Hamilton report was simply scathing. Among 
other criticisms, the Booz Allen Hamilton team found that: one, 
the Coast Guard's civil rights program did not fully protect 
confidential personal information; two, the service did not 
conduct thorough analyses of barriers to equal opportunity in 
employment or develop specific plans to break these barriers 
down; three, the service had a number of inadequately trained 
service providers who could not ensure the complaints 
management process was in full compliance with regulatory 
requirements.
    We also learned, after subsequent examination, that 
virtually none of these findings was new. Almost all of these 
criticisms had been identified--sometimes repeatedly--in 
previous third-party assessments of the Coast Guard Civil 
Rights Program and in the Coast Guard's own, their own self-
assessments.
    During the course of our April hearing, the Coast Guard 
indicated that six new positions had been assigned to the 
Office of Civil Rights. The Director of the Office of Civil 
Rights, Ms. Terri Dickerson, stated she could have these 
positions filled by June 15th, and I promised that the 
Subcommittee would reconvene after June 15th to receive an 
update on the progress made by the Coast Guard in filling these 
positions and in strengthening the provision of civil rights 
services. Ladies and gentlemen, that promise is kept by the 
convening of this hearing today.
    During our last hearing, Ms. Dickerson also indicated that 
a number of plans were being developed and were poised for 
implementation to respond to the many shortcomings identified 
in the Coast Guard's civil rights services. Initial reports 
indicate that significant progress has been made. I note that 
yesterday, the Coast Guard announced that civil rights service 
providers will now be full-time employees who will receive 
standardized training and who will report directly to the 
Office of Civil Rights. We applaud the long overdue 
professionalization of the Coast Guard's civil rights services. 
The announcement was welcomed.
    Finally, Ranking Member LoBiondo and I agreed that we would 
ask the Government Accountability Office to submit to the 
Subcommittee by next April the results of an assessment of the 
Coast Guard's effort to strengthen the management of its Equal 
Employment Opportunity and Equal Opportunity programs.
    I report today that Ranking Member LoBiondo and I, together 
with the Chairman of the Full Committee, Congressman Oberstar, 
and the Ranking Member of the Full Committee, have written and 
made that request. Our staffs have now met with representatives 
of the GAO, and the GAO is formulating its research plan at the 
present time and intends to present findings to the 
Subcommittee next April, as requested.
    I say this to emphasize that our oversight of the Coast 
Guard's civil rights programs will not end today. I also say it 
because I want to make it very clear that this is a bipartisan 
effort. It is not a Republican effort, it is not a Democratic 
effort; it is an American effort. Today's hearing is just 
another installment of what will continue to be an active 
oversight process. I remind you that this is our watch. This is 
our watch. Our goal is ensuring that the Coast Guard achieves 
and sustains a model EEO program for civilian employees and a 
model EO program for members of the military.
    During our April hearing, we also examined the initiatives 
that the Coast Guard is undertaking to expand diversity 
throughout its ranks. We have been particularly concerned about 
the diversity at the Coast Guard Academy.
    In May, the Coast Guard Academy's Class of 2009 graduated. 
Out of a class of 225 students, there were, according to data 
provided by the Coast Guard, 24 minorities. In that were 
included 10 Asians, 9 Hispanics, 4 African Americans and 1 
Native American. Additional data provided by the Coast Guard 
show that the incoming Class of 2013 is expected to begin with 
288 students, of whom 44 will be minorities, meaning that 
minorities will comprise approximately 15 percent of the 
incoming class. Of those students, Hispanic Americans will 
comprise nearly 9 percent of the incoming class and African 
Americans students will comprise 2 percent of the incoming 
class.
    I serve as a member of the Board of Visitors on the Naval 
Academy Board. Earlier this month, the Naval Academy announced 
that its Class of 2013 will be the most diverse class in the 
institution's history, with 35 percent of the class of incoming 
midshipmen being minorities. In other words, the Naval 
Academy's Class of 2013 has more than double the number of 
incoming minority members as a percentage of the incoming class 
than the Coast Guard Academy's Class of 2013 does. Further, 
this level of diversity in the Naval Academy's Class of 2013 
represents an increase of approximately 7 percent over the 
percentage that minorities comprised of the incoming Class of 
2012 last year.
    The very top levels of the Navy's leadership in the Office 
of the Chief of Naval Operations have recognized that diversity 
is not a problem to be managed but, rather, a promise to be 
realized. Our Nation's diversity is one of our greatest 
strengths. And, to ensure that it can harness this strength to 
accomplish its missions in service to our Nation, the Navy has 
set a clear objective of significantly increasing the diversity 
of its future senior leadership, and it is holding its current 
senior leadership directly accountable for their contributions 
to the achievement of this objective.
    To that end, I might add that I am joining with Chairman 
Bennie Thompson, Chairman of the Homeland Security Committee, 
to write the President and the Secretary of Homeland Security 
asking that when they appoint a new admiral to head up the 
Coast Guard, that they make sure that that person is sensitive 
to these issues. It might start at the beginning at the top. I 
note that Admiral Allen had done an outstanding job, but we 
must now build upon what he has done.
    In pursuit of the Navy's overall diversity objectives, the 
United States Naval Academy has implemented a comprehensive 
effort to break down any barriers that its old recruiting 
methods may have thrown in the way of achievement of its 
inclusion goals and has initiated new efforts targeted to reach 
potential students in every corner of this Nation. This effort 
has been led by the Dean of Admissions at the Naval Academy, 
Stephen B. Latta, who will testify today. I emphasize that he 
is here specifically to share with the Subcommittee how the 
Naval Academy has achieved its stunning successes. And one of 
the reasons why we invited him here is because we wanted to 
show that it can be done. It can be done.
    The experience of the United States Naval Academy 
demonstrates beyond a shadow of a doubt that where there is a 
will to expand diversity, diversity will expand. The Coast 
Guard is moving decisively to ensure that its civil rights 
services guarantee equal opportunity to all. Like the Navy, the 
Coast Guard must also take specific and aggressive steps to 
ensure that it can harness the strength of our Nation's 
diversity by ensuring that its leadership pipeline reflects 
that diversity.
    Finally, it is frankly past time for the Coast Guard to 
move to define comprehensive, service-wide diversity objectives 
and to require each member and unit of the service, including 
the Academy, to contribute to the achievement of these 
objectives.
    With that, I now recognize our distinguished Ranking 
Member, Congressman LoBiondo.
    Mr. LoBiondo. Good morning and thank you, Mr. Chairman, 
very much. The Subcommittee is continuing its oversight of the 
Coast Guard's civil rights programs and the service's efforts 
to address issues related to diversity within its ranks.
    Following our last meeting, I joined with Chairman Cummings 
to ask the Government Accountability Office to further examine 
the Coast Guard's Office of Civil Rights. While this work has 
just begun, I appreciate the Chairman's continued attention to 
these Coast Guard programs and how critical they are.
    At our last hearing, we were told of several items the 
Coast Guard planned to take action on prior to this hearing. 
These items included hiring additional civil rights personnel, 
a centralization of the civil rights program, and the 
identification of proven measures that would improve the 
workplace climate and could be implemented in the near future. 
I look forward to receiving an update on progress that has been 
made on each of these items.
    The Commandant has long voiced his interest in expanding 
the service's efforts to enhance the diversity of its military 
and civilian workforce. I support the Commandant's efforts to 
widen the scope of the Coast Guard's recruiting efforts to 
reach Americans of all races and in all regions of our country. 
The Coast Guard must remain centered on the goal of bringing 
the most talented and qualified candidates to serve in the 
Coast Guard.
    I am pleased the Dean of Admission of the Naval Academy 
will testify this morning on their approach to increased 
recruiting efforts to attract prospective midshipmen from non-
traditional areas. I believe the Coast Guard Academy should 
examine the initiatives adopted by their sister academy and 
determine whether or not these or similar approaches should be 
considered in New London.
    As I said at our last hearing, this Subcommittee stands 
ready to work with the Coast Guard to provide resources 
necessary to address these issues. Although we have not 
received any such requests to date, I hope the witnesses will 
include in their testimony whether additional resources or 
authorities are required at this time.
    Once again, Mr. Chairman, I want to thank you for your 
leadership and I want to thank the witnesses for their 
continued efforts in this particular area.
    Mr. Cummings. Thank you very much.
    I ask unanimous consent that the Congressman Bennie 
Thompson, the Chairman of the Committee on Homeland Security, 
who shares this Subcommittee's deep concern about the Coast 
Guard's diversity initiatives and equal opportunity programs, 
and has been closely following our oversight efforts, may 
submit a statement for the record. Without objection, it is so 
ordered.
    Mr. Cummings. We are very pleased this morning to have back 
with us Ms. Terri Dickerson, who is Director of the Office of 
Civil Rights with the Coast Guard, and Vice Admiral Clifford 
Pearson, who is Chief of Staff of the Coast Guard.
    Ms. Dickerson, thank you very much for being with us, and 
we will now hear from you.

  TESTIMONY OF TERRI A. DICKERSON, DIRECTOR, OFFICE OF CIVIL 
RIGHTS, UNITED STATES COAST GUARD; AND VICE ADMIRAL CLIFFORD I. 
       PEARSON, CHIEF OF STAFF, UNITED STATES COAST GUARD

    Ms. Dickerson. Thank you, sir. Good morning, Mr. Chairman 
and distinguished Members of the Committee. I am Terri 
Dickerson, Director of the Coast Guard's Office of Civil 
Rights. It is my pleasure to speak with you this morning again 
to report significant progress in the Coast Guard's Office of 
Civil Rights.
    I would like to request that my written statement be 
entered into the record.
    Mr. Cummings. So ordered.
    Ms. Dickerson. Thank you.
    During the April hearing, we discussed three topics: the 
current state of the Coast Guard's civil rights program; the 
strategies I had in place to act on recommendations resulting 
from a functional review; and, last, the benchmarks I am using 
to measure our progress. I am here to offer you evidence that 
Coast Guard has followed up on the many items we discussed.
    First, action plans. In April I reported that we had 
subjected the 53 recommendations arising from the functional 
review to action plans with milestone dates which enabled 
detailed tracking. I stated that 10 of the 53 recommendations 
had been completed. In the ensuing two months, that number has 
grown from 10 to 29 recommendations now completed. In sum, all 
53 actions are either in the planning stage, various phases of 
execution, or accomplished.
    Your statements and actions, and those of Admiral Allen, 
have communicated a strong message to our workforce: that valid 
and properly resourced EEO processes are vital to mission 
execution. With the momentum you have inspired, we are on track 
to implement all remaining actions.
    As to resources, Coast Guard has taken action. I am pleased 
to report that Coast Guard directed $570,000 to emergent 
current year civil rights needs and authorized six new 
positions. I have filled all six positions. Consistent with the 
Coast Guard's mission, they represent facets of diversity by 
grade level, race, gender, national origin; that is, Black, 
Hispanic, Caucasian, Asian American, male and female. Three 
were from outside Coast Guard and three represent succession 
opportunities within.
    Consistent with the preset that nothing substitutes for top 
leadership commitment, your strong support and that of Admiral 
Allen's for our Office's restructuring and level of resourcing 
are receiving service-wide support. I detected this during my 
visits over the past two months to five of the nine Coast Guard 
districts nationwide. At each I discussed the centralized EEO 
service delivery model, the functional review results, and 
strategic action plans. I am happy to report that personnel 
whom I have briefed are overwhelmingly pledging their strong 
support for our strategy going forward.
    We have taken a giant step forward finalizing our 
restructuring proposal in that it has now been signed by the 
Commandant. I expect full implementation of the proposed 
restructuring by July, or as soon thereafter as union 
notifications and resulting issues are resolved.
    In my visits to Coast Guard districts, I have met with 
command cadre, field level personnel, and other stakeholders, 
and have provided briefs to a wide range of audiences, 
including all-hands gatherings. On Tuesday, I reported to the 
Commandant that the opportunity to explain the new structure, 
one locality at a time, is offering me feedback to improve and 
engendering strong support among those who are hearing it 
firsthand. They have agreed it reaches benchmarks for a process 
fused with integrity and I am extremely encouraged by the 
positive feedback.
    Last, outcomes. Foremost, we will have a centrally run 
national program delivered by personnel trained in EEO 
statutes, regulations, guidance, policy, and instruction. This 
will foster consistency, better oversight, and faster and more 
reliable service. Our results will be evident in measures, 
including complaint processing timeliness, consistency of 
practices, prevention of unauthorized disclosures, and 
compliance with EEO requirements.
    Coast Guard has been transparent in its move to a modern 
day civil rights program, keeping you informed of our 
intentions. In my correspondence with you last year, I reported 
my plan to conduct the review. When complete, I communicated 
the results of the review to you, the workforce, and the 
public, and I have sent you my plan of action, with milestone 
dates for completion. In another letter last month, I provided 
a progress update, and I am updating the workforce during my 
visits.
    Mr. Chairman, the civil rights program is not only well on 
track with its goals and action plan. As you so eloquently and 
consistently remind us, this is our watch. Our journey from 
past day to the future one affords the opportunity for 
leadership and vision. I am proud to be the Director of the 
Coast Guard Civil Rights Program. I sense great momentum in our 
organization that I will continue to harness and drive toward 
becoming a model EEO program in the Federal Government.
    Again, I thank you for this opportunity to testify today 
and I am happy to take your questions.
    Mr. Cummings. Thank you very much, Ms. Dickerson.
    Vice Admiral Clifford Pearson.
    Admiral Pearson. Good morning, Mr. Chairman, distinguished 
Members of the Committee. I am Vice Admiral Clifford Pearson, 
Chief of Staff, U.S. Coast Guard, and it is a pleasure to be 
testifying on the service's diversity efforts. I ask that my 
written testimony be entered into the record.
    Mr. Cummings. Without objection, so ordered.
    Admiral Pearson. Mr. Chairman, the Coast Guard continues to 
build and sustain an organizational climate that embraces the 
potential and enhances the contributions of all of our 
employees by promoting inclusion, equality, and respect. We are 
taking aggressive action to promote the full awareness and full 
equal access to the entire spectrum of Coast Guard 
opportunities, and we want every American to know these 
opportunities exist.
    To that end, we have established a clear and distinct 
vision: ``recruit, retain, and support a ready, capable, 
diverse, and high quality military and civilian workforce.'' 
The Coast Guard has completed the initial draft of a new 
diversity strategic plan that will be finalized by 1 September 
2009. We look forward to sharing it with the Committee upon its 
completion.
    This strategic plan will better define our diversity goals 
and performance objectives that cascade down from and underpin 
the Commandant's diversity policy statement. It explicitly 
focuses on five strategic goals: increased diversity through 
leadership accountability; improve total workforce cultural 
climate; expand outreach and marketing; provide equitable 
career opportunities for all employees; and optimize and 
education to understand the value of a diverse workforce.
    This plan will also align with the Coast Guard Academy's 
strategy plan, will task subordinate echelon field commanders 
with the establishment and implementation of supporting 
diversity action plans. The plan's performance measures will 
result in leadership transparency and help ensure compliance. 
The plan also requires senior leadership's continued emphasis 
on the importance and urgency of diversity, and requires 
consistent communication to all levels of the service.
    As a guiding document, the strategic plan sets clear and 
concise direction to better position Coast Guard leaders and 
staff to make optimal diversity-related decisions while we 
continue to modernize and realign our forces to meet current 
and future needs. The strategic goals outlined in this plan are 
target levels of performances driven by our cause for action, 
our mission, as well as our regulatory requirements in core 
competencies. Moving forward, our approach requires an annual 
review and revision while evaluating action plan progress on a 
quarterly basis to maintain focus and continuously monitor our 
goals.
    We are confident the Committee will recognize the value of 
this plan. During previous hearings, Members of the Committee 
have asked ``What can we do to help?'' We ask for your 
continued support, interest, and involvement in executing our 
plan. You have helped us connect with local schools and 
communities we otherwise might not have reached.
    You further challenged us to forge stronger ties and share 
best practices with our sister services. And, just yesterday, a 
New York Times article pointed out the Naval Academy's expanded 
urban recruiting effort started two years ago that helped to 
result in their banner year, and we hope our similar programs 
will prove the same. Lastly, you have participated in Coast 
Guard outreach events, conveying the dedication and importance 
of making increased diversity in service a reality.
    While our strategy is being finalized, we are tracking our 
diversity initiatives through our tactical level diversity 
action plan. I will highlight some of the accomplishments to 
date. We have chartered an MD-715 Team to improve linkages 
between our civil rights and equal opportunity programs and all 
of our human resource efforts. These links are crucial to 
effective change in producing results, including gaps we have 
identified as needing closing.
    Additionally, we redirected additional funding in fiscal 
year 2009 to enhance our diversity initiatives, enabling 
increased outreach to Native Alaskans, increased participation 
by minority officers, in national level affinity group 
conferences vitally important to career development and 
progression into senior ranks and leadership roles, increased 
outreach activities at historically Black colleges and 
universities through strengthened partnerships with the 
National Naval Officers Association and the creation of an 
ambassador's program.
    We have just reprogrammed an O-6 captain billet to serve as 
a dedicated liaison to the national historically Black colleges 
and universities and predominantly Black institutions. This 
position, slated to be filled this summer, will improve the 
marketing effectiveness of several programs aimed towards 
increasing the diversity of our officer corps and our incoming 
Coast Guard Academy classes.
    We continue to press forward in our enlisted and officer 
recruiting programs. To date, in 2009, 32 percent of our total 
enlisted ascensions are minorities. We have also experienced a 
4.5 percent increase in women compared to the same period last 
year.
    We have refocused our college student pre-commissioning 
initiative scholarship, CSPI, program to ensure greater 
visibility at minority-serving institutions. CSPI has a proven 
record of attracting minority officer candidates and it is a 
success story. Of the current 42 candidates in the program, 48 
percent are minority and 38 percent are female. Projected pool 
of applicants for this year is also shaping up to have the 
largest candidate pool of any CSPI selection panel we have ever 
convened. We expect between 60 and 70 applicants, and that is a 
significant increase over the 48 from last year.
    We have recently hosted a landmark diversity forum a Coast 
Guard Headquarters in Washington, D.C. entitled Championing 
Diversity Leadership Roundtable. It was designed to bring 
together national leaders in the field of human resources and 
diversity.
    Additionally, the Coast Guard Academy recently released 
their 2013 strategic plan focusing on diversity, leadership, 
and character development. A copy will be provided for the 
record. This plan states our goal is to increase under-
represented minorities in the corps of cadets from our current 
14.4 percent to 25 to 30 percent by 2015 and in faculty and 
staff by 2020. The incoming Class of 2013 currently has a total 
minority population of 15.5 percent, an increase from last 
year's 11.9 percent. We continue to sustain a strong female 
presence at the Academy, with more than 29 percent comprising 
the entering class, the highest of any service academy.
    We are working diligently to embed sustainable strategies, 
actions, and outcomes for several years. We continue to invest 
in those programs and initiatives that will lead to increased 
diversity, including our Coast Guard Scholars Program, the 
Academy's one-year academic preparatory program. This year's 
incoming class contains 46 Coast Guard Academy Scholars, of 
which 43 percent are minority, and next year's prep class is 
estimated at 65 percent minority, including eight African 
American students who will make a strong contribution to the 
diverse composition of the Class of 2014.
    The Academy Introduction Mission, known as AIM, has been 
revamped and reshaped to emphasize minority student attendance 
where their high school those students selected as AIM 
attendees are provided a fully funded one-week experience 
during the summer after junior year. We are optimistic the 
program will increase enrollment of African Americans and other 
minorities since nearly 50 percent of the Academy's incoming 
class are typically AIM graduates.
    Mr. Chairman, we understand the only way to improve 
diversity at senior military levels is to grow it up through 
the ranks, and this takes some time. However, we are taking 
assertive actions to ensure our junior offices and enlisted 
personnel receive the coaching, the performance feedback, and 
mentoring necessary to advance in their chosen specialties. 
Since our testimony in April, we have implemented the plan 
change to our officer evaluation system and have also expanded 
the mandated use of individual development plans to help our 
newer members stay on track for success. An individual 
development plan is a roadmap for our personnel to reflect 
their goals and professional aspirations, with the help of 
their supervisors.
    We have also reprogrammed base resources to send 210 
members to participate in national level affinity conferences, 
which continue to prove incredibly powerful as career 
development tools. The mentoring and network opportunities 
created by the presence of our flag officers and senior 
executives at these conferences further enhances the long-
lasting connection.
    Mr. Chairman, as we previously testified, total workforce 
diversity is critically important to the Coast Guard. We view 
diversity as both mission relevant and an organizational 
imperative. The Coast Guard needs the best talent our great 
Nation has to offer, and it translates into mission readiness 
and execution. The cause for action is evident. The 
demographics of our Nation are changing rapidly and the Coast 
Guard must be proactive and forward-leaning in our recruitment 
and retention efforts. We have established the metrics to 
achieve our workforce diversity goals.
    In summary, we must continue to do all that we can to make 
certain every American is fully aware of the opportunities the 
Coast Guard has to offer and every American has full and equal 
access to those opportunities that is equally important as 
fostering, mentoring, and retaining our current workforce. With 
your continuing support, we will achieve our goals.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Mr. Cummings. Thank you very much.
    First of all, I want to thank both of you for your 
testimony. I want to go to you just very briefly, Admiral. 
Well, really, both of you.
    I remember one time I had a PR person in my office, but we 
weren't getting very much PR, so I went to him and I said we 
are not getting very much PR, I don't know what is going on 
here, and he said, well, I am doing this and I am doing that 
and I am doing this and I am doing that, and I said, you have 
been doing this for years now and you have got to produce or 
you don't have a job.
    I think what I am getting at is that we have got to put 
these efforts in to motion. I know some of them are in motion, 
but we have got to produce and we have got to see results. And 
when I look at the Academy's record, it is a painful sight, and 
I don't say that lightly. And the reason why I wanted the Naval 
Academy to come through here is because I keep hearing people 
not necessarily in the Coast Guard, but overall, when people 
cannot find or cannot get to levels of diversity that reflect 
our society, quite often they say, pretty much, it can't be 
done, and I want to make sure that people understand it can be 
done and that we have to direct our efforts in a way where it 
is most productive.
    And at the end of the day, as strange as this may sound, it 
is not something that I believe in very strongly, we only have 
a short time on this earth, and I believe that I want that 
little boy, that white boy in Roanoke, Virginia, I want him to 
have a chance to be in the Coast Guard, and I want that African 
American in San Francisco to have a chance if they are 
qualified. So it is not about color and all that; it is about 
just reflecting our society, and it is a reflection of the fact 
that all of our society is paying taxes to create these 
institutions, and I would just like to see the participation of 
a cross section of our society.
    Ms. Dickerson, you have stated that only full-time civil 
rights service providers will advise the Coast Guard personnel 
on the EEO rights and responsibilities. You further indicate 
that all civil rights service providers will report to the 
Office of Civil Rights. When will this change be implemented 
and do you have enough full-time civil rights service providers 
in place now to achieve your projected coverage ratio of one 
full-time civil rights service provide per 1,000 employees? If 
you don't have enough personnel to achieve that coverage ratio, 
when do you anticipate it will be achieved?
    Ms. Dickerson. Sir, the President's fiscal year 2010 budget 
for Coast Guard contains a request for four additional billets 
in the Office of Civil Rights Program. We are currently 
undergoing a manpower requirements analysis later this year. 
We, in our office, thought that the ratio, because of the 
relatively low number of complaints and the way our personnel 
are situated of 1,000 to 1 was about right-sized for the Civil 
Rights Program, and the manpower requirements analysis will 
validate that number for us. We will get the results of that 
analysis at the end of 9/30, September 30th is our target date 
for receiving that report, and we will act on the subsequent 
request thereafter and program any additional billets that we 
need from that analysis.
    As to the restructuring, sir, all of the authorization are 
signed off on and, as I mentioned, the unions have been 
notified, and there may be opportunity to bargain. Ten bargain 
unit employees are involved in the civil rights chain, so we 
will have to undergo that process, and as soon as all of those 
clearances have been received, we will be staged to go to the 
centralized structure.
    Mr. Cummings. You said that you were able to complete, I 
think you said, 29 of the 53 recommendations of the Booz Allen 
Hamilton report?
    Ms. Dickerson. That is right.
    Mr. Cummings. When do you expect to have the rest of them 
done?
    Ms. Dickerson. Almost all of them are scheduled for 
completion by the end of the fiscal year, and there are just a 
number of others that are programmed for completion by the end 
of October.
    Mr. Cummings. And would you provide us with a timetable, 
not a timetable, but let me know when you expect to have these 
done? And just like I asked you, at the last hearing, when you 
expected to have the six employees, you gave me a date and I 
gave you a week or two more, I will give you two weeks after 
you say. Then we are going to check back with you to make sure 
that they have been done. It is not that we don't trust you; it 
is just that we want to make sure we have accountability.
    Ms. Dickerson. Yes.
    Mr. Cummings. Were you about to say something?
    Ms. Dickerson. May I submit that for the record? I would 
look at the 29. I do believe our last completion date is 
October 31 time frame.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T0631.013
    
    Mr. Cummings. Well, what I am saying is that if you have 
things are going to be completed, say, for example, if you have 
something that is going to be completed at the end of August, I 
want to know that because I want to hold you to that and I want 
to make sure that that is done as soon as it can be done, 
because people's lives are hanging in the balance here.
    Ms. Dickerson. Absolutely.
    Mr. Cummings. So you follow me?
    Ms. Dickerson. Yes.
    Mr. Cummings. So, in other words, whatever it is you are 
going to get done, I want dates for those things; I don't want 
to just wait until the end. So that is what I want. That is the 
document that I want. So you want to wait and submit that?
    Ms. Dickerson. I believe we submitted it prior to, but I 
certainly can resend it.
    Mr. Cummings. Okay.
    Ms. Dickerson. I was under the impression we had, but if we 
have not, I certainly will get this to you right after the 
hearing.
    Mr. Cummings. All right, that will be fine.
    Mr. LoBiondo.
    Mr. LoBiondo. Yes, Mr. Chairman. Let me apologize; I had a 
meeting with an Air Force general that we could not get 
rescheduled, and that is why I was absent from the hearing. You 
had asked some of the questions I had asked.
    I am not sure if you did ask-- of the 53 recommendations 
that were made in the report, how many the Coast Guard has 
fully addressed at this point. Did you cover that?
    Ms. Dickerson. Yes.
    Mr. LoBiondo. You did, okay. Well, I will get it from the 
record.
    Thank you, Mr. Chairman.
    Mr. Cummings. I have a series of questions, so I am going 
to you, Ms. Dickerson, again. You filled six of the new 
positions assigned to the OCR, is that right?
    Ms. Dickerson. That is right.
    Mr. Cummings. And there is still one person who hasn't 
started?
    Ms. Dickerson. That person starts next week.
    Mr. Cummings. And what will these people be doing? Just 
generally. Do they all do the same thing?
    Ms. Dickerson. No.
    Mr. Cummings. Okay.
    Ms. Dickerson. As you know, we took on final agency 
decision writing for military complaints, so one of them is a 
final agency decision writer, an attorney, who will be in our 
office; we also have a support person in our office; and then 
four were programmed to the field based on the population of 
personnel that they will be delivering EEO services to.
    So one went to our seventh district in Florida, one went to 
our eighth district in New Orleans, one went to our ninth 
district in Cleveland, and Virginia was the other location, 
yes, Portsmouth, Virginia was our fourth person, we placed a 
fourth person; and these will be delivering civil rights 
services on a full-time basis.
    Mr. Cummings. Now, the Booz Allen report stated that within 
each field command, the commanding officer is considered to be 
the senior EEO officer for the particular command. What will be 
the role of the commanding officer of field commands in the 
Civil Rights Service provision processing forward?
    Ms. Dickerson. Going forward, we have taken the collateral 
duty civil rights officer and eliminated that function across 
the board. As I reported in April, there were about 400 
collateral duty personnel situated in local units all across 
the world, really, across Coast Guard, and the opportunity to 
delivery training to that ever-evolving cadre of people and 
policy changes, and to get performance feedback, or to even 
give it, was just not workable. So we have programmed a lot of 
those functions and they will be going to the XO, which is the 
executive officer, at those units. Every unit has one.
    So we will be delivering training to them through XO 
conferences, and also we will be giving them work tools. One of 
the main things that Admiral Allen and Admiral Crea wanted to 
make sure that we had was 24-by-7 coverage so that people could 
raise civil rights concern even if they were in an underway 
status on a ship. So we have added an 800 number whereby those 
commanding officers and executive officers can access a full-
time civil rights specialist when something occurs.
    And the reason that we programmed it to that position is 
that the XO is the one who can break the communication silence 
and access a satellite telephone for someone who is 
experiencing a problem perhaps on a ship underway, for example, 
maybe in a harassment situation. That phone will be staffed 24-
by-7 by military personnel, and if they don't answer the phone 
it rings on my personal cell phone. So we have added that 
element to make sure that we are not missing any opportunity to 
deliver services.
    Other of the collateral duty roles that were with those 400 
are now being reprogrammed to the full-time civil rights 
personnel.
    Mr. Cummings. Now, when you say services, are you including 
counseling?
    Ms. Dickerson. Yes.
    Mr. Cummings. Okay.
    All right, we are going to have to break, unfortunately, 
because we have a vote, three votes. We will be back here in 
about a half an hour. Sorry.
    We are in recess.
    [Recess.]
    Mr. Cummings. The hearing is called back into order.
    Admiral Pearson, the Academy's strategic plan says that one 
of your goals is ``cultivating a community of inclusion.'' One 
of the action items that you intend to undertake in support of 
that goal is to further diversity within the corps of cadets, 
faculty staff, and curriculum, including achieving a critical 
mass between 25 percent and 30 percent of the under-represented 
minority cadets at the Academy by 2015.
    Given that minorities are projected to comprise only 
approximately 15 percent of the incoming Class of 2013, what 
specific steps do you plan to take to increase the percentage 
of minorities by approximately 10 percent or more over the next 
six years? What specific recruiting efforts will be initiated 
and what are your target goals for the Class of 2014, for which 
you are now recruiting?
    Admiral Pearson. Thank you, Mr. Chairman.
    The approach is to do an extensive awareness campaign, as 
well as outreach. We have already begun to get into different 
market areas than we had previously been, including communities 
of under-represented minorities, as well as specific schools. 
And I mentioned in my opening statement about programs that we 
have altered the Academy introduction mission AIM and how we 
are going to use that as basically a scholarship item to fund 
the travel for a particular potential student to travel from 
wherever his or her home area might be to the Academy to have 
that experience in their summer.
    But basically the answer is an extensive awareness and 
recruiting campaign, as well as I think an extraordinarily 
important part of the entire approach is the Scholars Program. 
Those individuals that need a little bit more academic 
preparation we are sending to the New Mexico Military Institute 
or Marion Military Institute in Alabama for one year academic 
additional preparation. That has proven to be very successful 
over the past few years, and particular this year quite a 
number of our appointments were through the Scholars Program. 
We are expanding that.
    Also, I think not only does the Scholars Program aid in the 
admissions process, but obviously we are concerned of the 
success while at the Academy after admission, so with that 
preparation at the Scholars Program, it greatly enhances a 
cadet's ability to complete the four years of instruction and 
then, obviously, through commissioning and off onto their 
career.
    Mr. Cummings. At the most recent meeting of the Naval 
Academy Board of Visitors, they had a young lady from their 
recruitment team to come up. I think she was a graduate of the 
Academy, but one of the things that she said was that 
apparently it is a small office, but she said that they were 
very, very much committed to going everywhere they had to go in 
communities that so often never see a Navy recruiter, a Naval 
Academy recruiter, but that they were willing to go the extra 
mile.
    And it was clear from her enthusiasm that this was 
something that she was truly committed to, and I was just 
wondering what kind of recruitment office do we have? Do we 
have graduates of the Academy going out there to do that 
recruiting? This was a young woman, so she could kind of relate 
to these young people, and I have often said that we always 
talk about negative peer pressure with our young people. We 
need to go back to something called positive peer pressure. I 
was just wondering who is doing the recruiting with regard to 
graduates and recent graduates.
    Admiral Pearson. Yes, Mr. Chairman. And I particularly 
support the point of someone closer to the individual target 
audience's age and can take the experience that they have 
received in the Coast Guard. Not all of our recruiters are 
going to be Academy graduates, but obviously that has an 
additional credibility that they can speak to their experience 
while at the Academy. Some of our junior officers that we are 
using in our recruiting efforts might be through OCS, and, 
again, the example of the CSPI program that I talked about 
earlier.
    But it is very important, as I am sure our counterparts at 
the Naval Academy would say, that the message is important, as 
well as the messenger. So while we have senior officers 
involved in some of our outreach programs, again, to some of 
the HBCUs, we recognize that we need to have more junior 
officers closer in the age and experiential level to the 
individuals that we are trying to recruit, so absolutely, sir.
    Mr. Cummings. One of the things that is very important, 
too, is mentoring. What happens too often is that a lot of 
people don't realize it, but if a young person feels that they 
are not--not necessarily a young person. If an older person 
feels that they are not going to be comfortable and they 
qualify to do so many other things, they ask themselves why 
would I go to a place where I am not going to feel comfortable, 
although it is free tuition? I am just wondering what are we 
doing with regard to mentoring.
    Admiral Pearson. We have embarked upon a rather extensive 
mentoring program using organizations like the National Naval 
Officers Association for both Coast Guard officers, as well as 
the other sea service officers, and reaching out to our junior 
officers that are already within the service, but also using 
some of their what we call our ambassador program of reaching 
into the target audience that we are trying to recruit.
    Mr. Cummings. You wrote in your testimony that the Coast 
Guard Academy Scholars Program also presents our greatest 
opportunity for pulling students from unrepresented minority 
populations to the Academy, as over 50 percent of students in 
the Scholars Program represent these populations. Those are 
your words. Now the Scholars Program is a program through which 
you send applicants to the Coast Guard Academy to a year 
preparatory school at another military institution. That is 
what it is, right?
    Admiral Pearson. Yes, sir. The Scholars Program involves 
the New Mexico Military Institute and Marion Military 
Institute, and you are correct, sir, for one year of additional 
academic preparation.
    Mr. Cummings. So what is interesting, Admiral, is that 
every time we seem to mention African Americans at the Academy, 
the first thing the Coast Guard comes back with is their AIM 
program and prep school or college, junior college situation. 
There are many students who don't need that.
    Admiral Pearson. Yes, sir.
    Mr. Cummings. And who can do fine; we have just got to get 
them interested, get them in, get them to apply, and then do 
what we have to do to keep them interested so they graduate. So 
why is sending minority students to preparatory school your 
best opportunity to bring more minorities into the Academy? And 
don't get me wrong, I am not knocking the preparatory school. I 
just think that sometimes we can go in--let me just share this 
with you.
    When my daughter went to private school years ago, 
everybody thought she was there on a scholarship because of her 
color, and they wanted to give her some general math and all 
the African American young ladies--it was an all girls school--
they wanted to take all of them and put them in this general 
math. Well, that kind of concerned her and it was one of the 
only times that I did not become upset with her when she did 
something like that, she missed school because she stormed out 
in protest with the other young ladies because she knew she was 
better than that and she though it was unfair. And I am just 
wondering.
    Sometimes I think we can have some assumptions, and when I 
see this as a part of your testimony, I am just wondering if 
there is an assumption here that they are not African American 
kids and a lot of them, by the way, who may not even need a 
prep school. So if we assume that they all need the prep 
school, then here are certain groups of people you don't even 
go after.
    I go to the graduations this time of year almost every week 
and see kids that are going to Harvard and Yale, and brilliant 
kids with SATs off the charts. I want to get some of those 
kids, young people, into the Coast Guard Academy, and I want to 
get them in so that they will be a part of the pipeline. I want 
to get them in there so that other young people will say well, 
Joe, who could have gone to Harvard, he went to the Coast 
Guard; maybe I want to go to the Coast Guard Academy.
    Any comments?
    Admiral Pearson. Yes, sir. I agree with you, the Scholars 
Program is not necessarily focused upon under-represented 
minorities, but it is, of course, a resource available to any 
that need the additional academic preparation; and I think part 
of what I took your comments to be, as far as students who are 
already academically qualified and prepared to go into the 
Coast Guard Academy, we need to find those areas, the schools, 
and focus our recruiting efforts in those areas.
    I think we have had a comparatively limited recruiting 
effort for the Coast Guard Academy, and that is one of the 
areas that we really need to expand into, the markets where we 
are going to be able to locate and attract the individuals that 
are ready for the Academy at that point.
    I also take your point, sir, that we would love to have, 
obviously, an individual choose the Coast Guard Academy over 
the Harvards or the ivy leagues, and I think part of that is 
not only trying to focus on individuals in perhaps their junior 
year or the summer after their junior year, but start to 
progress that clock backwards and find some attraction at even 
a sophomore year in high school or a freshman year in high 
school.
    I think there is also perhaps a cascading event that 
individuals who have someone that they looked up to, perhaps in 
their high school or their brother or sister who has gone to 
the Coast Guard Academy and convey that positive message back 
to the school, the community, the home front I think is also a 
powerful message that we have to send.
    So the key is exactly finding the areas where we need to 
expend our recruiting effort, our recruiting capital, if you 
will, and focus in on those and find the students. Obviously, I 
would continue to support the Scholars Program, but I take your 
point absolutely that we need to focus in on those who are 
graduating from high school ``this year'' and, if they are 
academically qualified and otherwise prepared, we want to find 
them and leverage that.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I was wondering if the Coast Guard Academy staff consults 
with their counterparts at the other service academies to share 
information on their respective recruiting efforts and 
successes that they may have had. Have you done that?
    Admiral Pearson. Yes, sir. The acronym is COSA, Chiefs of 
Service Academies, and our superintendent, Rear Admiral Burhoe, 
does participate in those. I believe that the staffs 
participate with their counterparts as well. But from the 
Chiefs of the Service Academies there have been discussions 
about recruiting efforts, and I think that is a powerful tool, 
particularly from our standpoint, and I guess being just a 
little bit selfish of where we can find those lessons learned 
from the other service academies and where they are having 
success and how we could translate those over to the Coast 
Guard Academy and our efforts. So I am particularly also 
looking forward to the secondary panel with the Naval Academy 
and, again, find and explore deeper in some of their best 
practices and how we can perhaps copy those over to our 
institution.
    Mr. LoBiondo. It has come to our attention somewhat 
recently that there are discrepancies in the Coast Guard with 
quality of life issues compared to other branches of the 
military, and we are going to make an attempt to deal with 
that. I am curious, with recruiting resources, does the Coast 
Guard Academy have the same recruiting resources as the other 
academies, or how do you compare with the other academies when 
it comes to your resources to recruit?
    Admiral Pearson. I don't have a specific answer. I would 
say that I would suspect it was smaller simply because we are a 
smaller institution, but I would have to provide an exact 
comparison for the record, if that would be acceptable, sir.
    Mr. LoBiondo. Well, I guess what I am after is, I would 
understand if it would be smaller, but is it proportionate? Are 
we disproportionately smaller I guess is what I am getting at. 
I understand you don't have that information, but if you could 
get back to us, because, Mr. Chairman, that might be a part of 
the problem that has been consistent with how we have seen the 
Coast Guard treated in other areas that might be able to help 
out in this area. So thank you very much.
    Admiral Pearson. Yes. And we will provide that for the 
record, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T0631.014
    
    [GRAPHIC] [TIFF OMITTED] T0631.015
    
    Mr. LoBiondo. Thank you.
    Mr. Cummings. Admiral Pearson, I have a chart showing 
application and appointment data to the Coast Guard Academy for 
several years. It is up here on the board. I guess it is kind 
of hard to see, but you are familiar with that, right?
    Admiral Pearson. Yes, sir, I am familiar with it.
    Mr. Cummings. The Coast Guard did not provide the numbers 
for the chart to show how many Hispanics and African Americans 
actually completed application for the Classes of 2008 through 
2012. Similarly, the Coast Guard Academy apparently did not 
track the number of Native Americans or Asians or Pacific 
Islanders who started applications or were offered appointments 
for the Class of 2009, 2010, 2011, and 2012. To me, this shows 
a lack of concern for actually tracking minorities at the 
Academy. Can you explain what the case is with regard to that?
    Admiral Pearson. Mr. Chairman, it is difficult to see up 
there. I know that for the African American applications it is 
a comparatively smaller number of completed applications from 
the initiated applications. Is that what you are referring to, 
sir?
    Mr. Cummings. Here.
    Admiral Pearson. Thank you. I would offer that those 
individuals who have started the applications but had not 
completed, the Coast Guard Academy does reach out to those 
individuals specifically to inquire as to whether we could 
continue to work with them to complete their applications.
    Obviously, that becomes an extraordinary resource for them 
because I would contend that, for example, the Class of 2013, 
under 162 African Americans, that those individuals obviously 
are aware of the Coast Guard Academy and have some interest in 
attending the Academy. I would suspect that they probably have 
other competing institutions that they are interested in 
attending.
    But if we could work more diligently with those 162, 
obviously, that becomes a significant opportunity for us. But, 
again, I would emphasize that we do, from the Academy 
Admissions Department, specifically reach out to every one of 
those.
    Mr. Cummings. You know, one of the things that is a little 
bit disturbing about these charts is that when we look at 
completed applications, Class of 2009 for African Americans 
there were 55, Class of 2010 there were 52, Class of 2011 there 
were 39, Class of 2012 there were 37; and then we have the 
lowest number for African American completed applications, 35, 
for the Class of 2013. Can you explain that? Do you have any 
rationale for why that might happen?
    Admiral Pearson. Of why the completed applications----
    Mr. Cummings. In other words, why we are going down. We are 
going backwards. In other words, the numbers are coming down.
    Admiral Pearson. Yes, sir. I do recognize that and I don't 
have an explanation for it. But, again, I would offer that, and 
I think we both recognize the delta between the complete and 
the started applications is a large number that provides us an 
opportunity, even though we are reaching out to them, to try to 
either find the reason specifically in drilling into the data 
why we are losing them. If we have got an opportunity to change 
either the message or, again, the messenger, working with these 
young individuals to at least encourage them to continue the 
application process. But, no, sir, I don't have a specific 
reason for the trend.
    Mr. Cummings. And we have had trouble nailing this number 
down. How many African Americans have accepted an appointment 
to the Coast Guard Academy for the Class of 2013?
    Admiral Pearson. Oh, yes, sir, I know that there were a 
little bit of confusion because there has been a recent 
addition, if you will. You may have been provided with 
information that the Class of 2013 has five African Americans. 
It in fact is six. A young African American female just 
accepted her appointment this week; she had had some medical 
issues that were resolved.
    Mr. Cummings. Now, the Navy has established a set of 
diversity benchmarks for the 2037 flag pool based on the 
anticipated demographics of society adjusted for anticipated 
graduates with science and technical degrees. Has the Coast 
Guard set goals for its 2037 flag pool? The Navy did. Have you 
all?
    Admiral Pearson. No, Mr. Chairman, we have not. We have 
consistently stated that the Coast Guard ``needs to look like 
America'' and certainly reference the U.S. Census Bureau's 
projections, and that becomes our benchmark. In direct answer 
to your question, we have not set a quota for flag board in 
that area.
    I would mention, though, again, that our diversity 
strategic plan that I mentioned in my oral opening statement, 
that we are looking to finalize by 1 September, we are talking 
about leadership accountability, and I think that will 
certainly have bearing as we look to the future, sir.
    Mr. Cummings. Now, the Superintendent of the Academy is 
Admiral J. Scott Burhoe, is that right?
    Admiral Pearson. Yes, Mr. Chairman, that is correct.
    Mr. Cummings. According to his biography on the Academy Web 
site, he began his assignment as Superintendent in January 
2007, is that right?
    Admiral Pearson. Yes, sir, that is correct.
    Mr. Cummings. The Director of Admissions at the Academy is 
Captain Susan Bibeau?
    Admiral Pearson. Yes, Mr. Chairman, it is pronounced 
Bibeau, yes, sir.
    Mr. Cummings. According to her biography on the Coast Guard 
Academy Web site, she has been in this assignment since July 
2001. Is that correct?
    Admiral Pearson. Mr. Chairman, I have to respond with input 
for the record. It has been a while. I don't recall.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T0631.016
    
    Mr. Cummings. I can tell you it is right. It is correct. 
And why would you think she would have been there so long with 
these figures? I can tell you that if this was my office and I 
had the goals to have a diverse workforce, she wouldn't be 
there. She just wouldn't. It would go against everything I 
believe in.
    And I am just wondering. Do you have any idea? Do we just 
leave people in positions to be leaving them there, when the 
numbers are going down, or is there an accountability problem 
from the top, or both? Do you understand the question?
    Admiral Pearson. Yes, sir, I understand the question.
    Mr. Cummings. Okay.
    Admiral Pearson. I don't have the rationale as to what 
particular bore on the decision for her to be extended in her 
existing position. I can provide that perhaps for the record.
    Mr. Cummings. Thank you very much.
    Admiral Pearson. Yes, sir.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. No other questions.
    Mr. Cummings. Admiral Pearson, my staff was briefed on 
Monday that Captain Steve Bains has been designated as your 
liaison to the historically Black colleges and universities. 
When will he start his new position?
    Admiral Pearson. Mr. Chairman, the decision on the 
assignment has not been made. He is a very appropriate high, 
fine candidate for that billet. I believe it has been 
advertised within our system for individuals to basically put 
in their request for assignment, and we are looking to have 
that billet filled this summer.
    Mr. Cummings. And can you give us a date so we can--you 
know, we had this discussion last time when we talked about 
historically Black colleges and universities, and we said that 
there was a liaison for the historically--I forget the name--
Hispanic colleges, which there are very few, and there are over 
100 historically Black colleges, but there was no liaison. 
Something doesn't add up here. I am just curious, when do you 
expect--do you have a date coming up for that?
    Admiral Pearson. Mr. Chairman, I don't have a date for the 
assignment, but I will tell you with all confidence that it 
will be in the very, very near term. I could get you a date and 
provide that for the record here shortly, sir. As I mentioned, 
the job is correctly being advertised and the process does not 
take very long after individuals have expressed an interest 
before orders are issued on it.
    Mr. Cummings. Why don't we just make a date, say September 
1st?
    Admiral Pearson. Oh, absolutely, sir. The orders would be 
issued well in advance of that. I can't imagine that it would 
be after the 15th of July.
    Mr. Cummings. Okay. All right, August 1st.
    Admiral Pearson. Yes, sir.
    Mr. Cummings. We will check back with you at that time.
    Admiral Pearson, will the Coast Guard expand what are 
currently the very limited number of Junior Coast Guard ROTC 
programs and efforts? It seems like another way to be able to 
accomplish some of the things that you just talked about.
    Admiral Pearson. Yes, sir, Mr. Chairman. We don't really 
have a ``ROTC program,'' but what we do have, as I mentioned 
earlier, we refer to it as CSPI, the College Student Pre-
Commissioning Initiative, and we are increasing our quotas in 
there and we have also changed that program to increase 
opportunities for participation by under-represented 
minorities.
    Mr. Cummings. We are talking about high school kids now, 
right?
    Admiral Pearson. Oh, I am sorry.
    Mr. Cummings. I said Junior ROTC.
    Admiral Pearson. Oh, I heard the ROTC part. I am sorry, 
sir.
    Mr. Cummings. That may have been my voice. I apologize.
    Admiral Pearson. Yes, sir. Well, as far as the ROTC 
programs for high school students, we have the one in Florida, 
Miami metropolitan area, that we refer to as MAST. There has 
been some discussion about establishing another one in the 
Middle Atlantic region and, of course, it is not an ROTC 
program, but you are familiar with our initiative at MIA in 
Baltimore. We don't currently have plans for another ROTC high 
school program that I am aware of, sir.
    Mr. Cummings. Thank you very much.
    Ms. Dickerson, do you owe us anything else? I just want to 
make sure we get everything you promised us. I think you----
    Ms. Dickerson. Not to my knowledge.
    Mr. Cummings. Let me just say this to both of you. We just 
want to try to move this process along. We want to move the 
process along. We don't know how much time we have in these 
positions. We don't know how much time we will have to address 
these issues, but in the time we do have, we want to make a 
difference.
    And there is some little boy, some young lady sitting out 
there wanting to, first of all, trying to dream, but they are 
not even exposed to the Coast Guard, so they don't even know to 
dream about the Coast Guard. Then there are others who are 
exposed, but because of various things that have actually come 
up in this hearing, they will never get in the Coast Guard, in 
a lifetime. And that person who could have contributed to the 
Coast Guard and to our Country, they will never have the 
chance; and that is very, very unfortunate.
    I really believe that we can do better. I just believe our 
Country is greater than that, that we can do better.
    Ms. Dickerson.
    Ms. Dickerson. Sir, if I could just say I don't like 
excuses, and I don't want to offer you any at all. To the 
extent that we have passed, I am using that to inform us so 
that we don't make the same mistakes or get into the same 
inertia. I feel as though we have momentum. I appreciate your 
leadership very much in developing that momentum and sustaining 
it, and that of Admiral Allen's.
    As you indicated, this is our watch. I hope not to be 
transitioning. I hope to see this and shepherd this through to 
completion. I have a vision for how this can come about with 
regard to the civil rights program, and I intend to give it the 
full force of all my effort and background and training to make 
sure that we accomplish all of our goals and really strengthen 
our civil rights program once and for all.
    Mr. Cummings. Thank you.
    Yes, sir.
    Admiral Pearson. Sir, let me add on, from a diversity 
standpoint and the Coast Guard Academy perspective as well, we 
certainly share your view and the views of the Committee, and 
honestly very much respect and appreciate the efforts that you 
and your staffs have put together with us. We share the same 
view. We recognize that we are not nearly where we want to be.
    We also recognize that we are building some of the very 
important foundational elements right now and setting the goals 
and look to achieving them. Obviously, it is important for our 
service. It is not only an issue of the proper moral direction, 
but I think it is an operational imperative for the Coast Guard 
to further diversify from where we are. So again, sir, we share 
that goal and we are aggressively pursuing it.
    Mr. Cummings. Last but not least, perhaps I have spent a 
lot of time talking about the things that we are not doing. Let 
me just say I think that we are definitely moving in the right 
direction, no doubt about it. I want to thank you for doing 
that. But now we have got to have results.
    Admiral Pearson. Yes, sir.
    Mr. Cummings. I hope that you will implant in the DNA of 
every cell of your brain what I talked about with my PR person. 
By the way, the response was I am doing this, I am doing that, 
I am doing this, I am doing this; and I said, well, basically, 
it is like treading water. I am trying to get you out in the 
deep water and you are treading water near the harbor, going 
nowhere fast. We can have a lot of efforts, but if it is not 
leading anywhere--it is nice to watch you tread water, but that 
is not getting us anywhere.
    So that is why I am so interested in tracking progress. I 
think these charts need to be accurate. There is no reason why 
we shouldn't know exactly how many folks--white, women, Blacks, 
everybody--are going into these academies. The Academy is just 
a little bit bigger than maybe two high schools. Matter of 
fact, they have high schools bigger than the Academy in 
Baltimore, so we should be able to attract the numbers in a 
high school. So when I see issues of we can't even figure out 
how many people are even coming into the school of different 
races and whatever, that does concern me.
    We spent, my staff and I, we had to try to figure out 
exactly how many folks of different races and whatever were in 
the Academy. There is something wrong with that picture. And 
you all have heard me talk many times about a culture of 
mediocrity. This Country cannot be all that it is supposed to 
be if we are caught up in a culture of mediocrity; it just 
can't.
    Let me be quiet and move on to the next witness. Thank you 
all very much. Appreciate it.
    Admiral Pearson. Thank you.
    Ms. Dickerson. Thank you.
    Mr. Cummings. We now welcome Mr. Stephen Latta, Dean of 
Admissions at the United States Naval Academy. Dean Latta, how 
are you?
    Captain Latta. Doing well, sir.
    Mr. Cummings. Thank you for being with us.
    Admiral Pearson, I want to thank you for sticking around. I 
really mean that. I really appreciate that, because most times 
folks leave. But thank you for sticking around.
    Dean Latta.

 TESTIMONY OF STEPHEN B. LATTA, CAPTAIN, USN RETIRED, DEAN OF 
            ADMISSIONS, UNITED STATES NAVAL ACADEMY

    Captain Latta. Thank you, sir. Chairman Cummings and 
distinguished Members of the panel, it is my pleasure to have 
the opportunity to discuss the Naval Academy's efforts to 
improve diversity in the brigade of midshipmen. I first want to 
thank the Members of Congress, especially you, sir, for your 
ongoing support in both resources and helping us reach out to 
the Nation through your congressional districts.
    The Naval Academy's efforts to diversify the brigade of 
midshipmen have been ongoing for a number of years. However, it 
is with the strong support of the Navy leadership and Vice 
Admiral Fowler's guidance as superintendent that we have made 
the greatest strides in the last three years. Improving 
diversity in the brigade of midshipmen is our number one 
priority, and there is strong cross-institutional support for 
doing so.
    Our initial focus was to understand why we were not doing a 
better job in attracting young men and women of diverse 
backgrounds. With the self-analysis of our marketing programs 
and patterns, feedback from parents, many of our Blue and Gold 
Officers, our volunteer network, some of you in Congress and 
many others, we not surprisingly came to the conclusion a 
couple years ago that our biggest challenge was awareness. That 
is, many of the young men and women we were trying to attract 
to the Naval Academy simply did not know about us.
    To reach these youth, their parents and their influencers, 
we felt we needed to radically change our approach. We decided 
initially to focus our efforts primarily on under-represented 
areas of the Country that had large diverse populations and the 
high performing schools with large diverse student bodies in 
each one. In each area and school we targeted, we tried to 
focus on developing strong personal relationships by 
maintaining close contact and looking for creative approaches 
that would gain confidence and support of local influencers and 
others. This is the same approach that is used much like our 
football coaches do when they go out on the road.
    Supporting these efforts has been a concerted buildup of 
support networks such as our Blue and Gold Officer Programs, 
our alumni chapters, parents clubs, and building partnerships 
with many of the affinity groups such as National Society of 
Black Engineers. We have found support networks to be a force 
multiplier in many communities.
    We also revamped and reoriented our marketing programs to 
be more attractive to minority students and focus earlier in 
their education, in our case, we thought as early as seventh 
grade. This led to the development of our first ever STEM 
program, Science, Technology, Engineering and Math program, in 
the summer, and several initiatives to invite groups of 
underclass students to various venues at the Naval Academy, 
including the recent dedication of the Wesley Brown Field House 
named for our first African American graduate.
    We are constantly looking for new and creative ways to 
market ourselves nationwide, whether it is through the use of 
our musical groups, such as the gospel choir and our band, 
development of new videos such as those seen on ESPN during 
football games, or a comic book we call the graphic novel, we 
seek to brand ourselves in order to increase awareness.
    There are many other efforts underway, and they appear to 
be paying dividends at a rate we did not expect them to do so 
so early. As you stated, sir, both last year's class and the 
one that is about to enter the Naval Academy on the 1st of July 
will be the most diverse ever. Supporting the incoming classes 
are the most diverse preparatory programs in our history, and 
our summer seminar program that just concluded yesterday 
included over 1,000 rising young senior minority students for 
the first time ever.
    In closing, I would like to say that we have accomplished a 
lot in a relatively short period of time, but we really feel we 
have a lot of work to do. Awareness is a very important issue 
in many communities and among many groups, but we know that by 
remaining both proactive, persistent, and patient, we will 
continue to improve our efforts over time.
    Thank you for all you have done to support us in these 
efforts, and thank you for this opportunity to discuss our 
progress to date. I am available to answer any questions you 
might have for me, sir.
    Mr. Cummings. Thank you very much, Dean. Dean, tell us how 
are we doing with regard to women? When I go to the meetings, I 
see it seems like we are doing pretty good at the Naval 
Academy. How are we doing with regard to women?
    Captain Latta. Yes, sir. We are expecting to bring about 20 
percent of our incoming class this year who are going to be 
females. The overall application rate for females this year is 
about 22 percent of the overall applicant pool. That is an 
improvement over the last three to four years. In fact, about 
four years ago we were bringing about 15 percent of the class. 
We have improved it and the last three or four classes have 
been between 20 and 22 percent of the incoming class.
    Mr. Cummings. Now, how many of the minorities that are 
admitted to the Academy in any given year have attended a 
preparatory program and how many are coming straight from high 
school?
    Captain Latta. I cannot give you that exact number, but I 
will get the number for you and bring it in. But we are getting 
more direct from high school than we have, I do know that for 
sure. For the first time ever, for example, this incoming 
class, I have 55 of the 125 African Americans are coming direct 
from high school, and we have never had more than about 40 to 
45 in a given class that have been able to come straight from 
high school. So it is improving and we do see that as we go out 
and work many of these schools that have very talented young 
men and women, that we are able to do a better job of getting 
those that can come straight from high school straight into the 
school.
    Mr. Cummings. How many recruiters do you have specifically 
recruiting students to the Academy and where are they located 
across the Nation? How many are graduates of the Academy?
    Captain Latta. Yes, sir. Currently, in my office, I have 
four diversity counselors who are dedicated toward our 
diversity efforts. We divide the Country into four different 
regions. Each one obviously covers a different region of the 
Country. In addition to those four, we have five officers 
stationed around the Country in different locales; one in New 
York, one in Atlanta, one in Houston, one in Chicago, and one 
in San Diego. Of those nine people whose specific job is to 
attract young men and women of diverse backgrounds, seven of 
them are Naval Academy graduates.
    Mr. Cummings. And how are applications for admissions 
reviewed at the Academy? How many people review an application 
and how are final admission decisions made?
    Captain Latta. We have an admissions board composed, in 
most years, between 13 to 15 people I expect next year we will 
have about 15 people. Every application that is submitted is 
prepared by one of the regional directors, that is a majority 
counselor or diversity counselor, and those are presented to 
our admissions board for review. The admissions board reviews 
every application.
    In a sense, even though they are prepared by one person, 
because we have an electronic process, every member of that 
board can view that application file as it is being briefed and 
in detail, and oftentimes there is a lot of I would say it is 
kind of like a debate at the admissions board, where they will 
talk about the attributes of the different person being 
presented, and then the board will make a decision on that 
particular person to their overall qualification; that includes 
whether that person ought to go to a preparatory program, maybe 
they should go to college for another year or they should be 
eligible for direct admission.
    Mr. Cummings. And I understand that you have a chief 
diversity officer position at the Academy. Who fills that 
position, what is the position's responsibilities, and how many 
staff members work for that chief?
    Captain Latta. Yes, sir. We have been working hard for 
about the last year and a half. In fact, the two gentlemen with 
me today, Mr. Joe Rubino initially was asked by the 
Superintendent to help bring that directorate along about a 
year and a half ago with a couple of--in fact, we had four 
people helping him at the time. Captain Tony Barnes, who is 
sitting behind me now, came in last September as we are 
continuing to mature that directorate, and we expect to have 
about 10 people assigned to it when we are done, but right now 
there are not that many in there, there are about five people.
    Mr. Cummings. And what percentage of your incoming minority 
cadets participated in Junior ROTC, do you know?
    Captain Latta. This year, I am anticipating about 16 to 17 
percent of the incoming class; last year it was 20 percent.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Latta, thank you for being here. Can you tell us how 
has the Academy's outreach efforts changed under your 
leadership? What are some things you can point to that you have 
changed since you have been there?
    Captain Latta. I think probably the one thing is that there 
has been some philosophy changes. I worked in our admissions 
office for about four years because I became the Dean of 
Admissions, and I think even though we thought we were doing a 
good job in diversity, in reality, I think we were more focused 
on our brand name, that we are the Naval Academy and people 
should know about us.
    But the realization that people don't know about us in many 
communities, in fact, I am a little bit embarrassed to say, a 
couple years ago, when we started doing more to reach out to 
some of the schools in some of the big cities, when I went up 
to Baltimore, there were some kids in some of the high schools 
there that didn't even know the Naval Academy was 30 miles 
away, and that really, I have to tell you, was kind of a 
sobering moment for me because I thought, boy, local kids ought 
to know where the local schools are.
    But we decided that we weren't going to sit back any 
longer; we were going to go out and we were going to look for 
the good kids in these good schools. Part of it is a resource 
issue. We don't have a lot of people working specifically for 
this, so we just tried to do the best we could with what we 
have, and I think that is probably one of the big things.
    The other thing is that I have encouraged every one of the 
folks that work in our office to look for a different approach 
in every school that they go to, because many of the schools, 
the traditional approaches that we have been using really have 
not worked. So, for example, we have some schools that are very 
technically focused. They were looking for help initially to 
help develop an aeronautical program in their school, so we use 
that as an opportunity to link up one of our professors at the 
Naval Academy with the school, and part of that was to build 
that friendship, that partnership with the school to gain their 
trust and interest in us that we were there to help them out.
    We have invited many of the students from some of these 
schools to come down and do overnight visits at the Naval 
Academy, and while they are there we give them an opportunity 
to visit and not only see the facilities and get presentations 
by the professors, but they get a chance to meet with the 
midshipmen who are closest in age to them, those who have 
shared experiences and that type of thing, so they start to see 
that this could be a place for them.
    Probably another thing has been the use of our musical 
groups. The gospel choir in particular we have had greater 
flexibility with support of our superintendent to use those 
groups to get out and outreach in many of the communities. 
Wherever they travel, they draw big crowds and the kids in the 
high schools see these young men and women who are at the Naval 
Academy and they realize that that could be them. In other 
words, we are creating an opportunity for them to see that this 
could be them in that school doing that. Same thing with our 
bands who have developed repertoires that appeal to young men 
and women.
    There are a number of other things and I can get more 
information for you on that.
    Mr. LoBiondo. Thank you.
    Mr. Cummings. Now, tell us about your STEM program. Tell us 
how the STEM program plays in what you are doing and your 
efforts, Science, Technology, Engineering, and Math.
    Captain Latta. Yes, sir. The STEM initiative came about 
mainly for a couple reasons. Number one, because we knew we 
were not doing a good job of attracting our youth at a younger 
age. Too often we were going to high schools in the senior 
year, looking for students who were getting ready for college.
    And other schools--and I hate to say it--like ivy league 
schools and high tech schools that already had developed 
partnerships with the schools and the kids had already 
obligated to go to the schools before we ever got to them, so 
we felt that developing a STEM program was a way to increase 
awareness of the Naval Academy at a much earlier age.
    The other part of it is we felt a civic responsibility in 
trying to do our part to encourage math and science 
preparation. Coincidentally, that is the type of thing we need 
to do for the kids that are coming to our school because we 
know it is a very technically oriented school. So if we can get 
to a kid in seventh, eighth, or ninth, or even tenth grade and 
say, hey, come to our STEM program and we will show you a lot 
about the Naval Academy, but we will also guide you in what you 
need to do to prepare for college, they will be better prepared 
for admission to a school like ours, even if they don't choose 
our school down the road.
    Mr. Cummings. You have a summer seminar program also?
    Captain Latta. Yes, sir.
    Mr. Cummings. Talk about that.
    Captain Latta. Probably we would call that our flagship 
program, but we completely reoriented that whole program with a 
focus on trying to improve representation for a lot of the 
under-represented congressional districts.
    Mr. Cummings. What is the program?
    Captain Latta. This program is for rising seniors, those 
coming out of the junior year into the senior year of high 
school. It is essentially a marketing program where these 
juniors going into their senior year come to the Naval Academy 
for a week. We have three one-week sessions in June. In fact, 
the last session, as I mentioned, just ended yesterday.
    They room in Bancroft Hall, they form them up in platoons 
with midshipmen who just came out of their first year running 
them, and oversight from the seniors. They have an opportunity 
to go to academic workshops, tour the facilities, learn a 
little bit about physical education the way we teach it at the 
Naval Academy, and generally get an overall impression what the 
Naval Academy is all about.
    So, again, I come back to the awareness issue. We thought 
that if we made the program bigger and we expanded it and made 
a more concerted effort to get into these areas where we 
weren't attracting young men and women, that we could do a 
better job of getting them interested in the Naval Academy. And 
the reason I say that is our track history has been if they 
come to summer seminar, two-thirds of the kids that come will 
follow through on their application the following year and 
complete the application for admission. That, to me, has been 
one of the big keys in improving diversity, because getting the 
kids to complete the application gives you a talent pool to 
work with that you can consider for an offer of appointment or 
preparatory program, what have you.
    But when they come to the Naval Academy, they get sold and 
their parents, who often drop them off or will come and take 
tours of the Academy and get briefings by our staff and meet 
with other parents of midshipmen and candidates, the parents 
get sold on the program also. So it is a very powerful tool in 
marketing the Naval Academy and, as I said, we took a definite 
focus on trying to bring more kids in from the under-
represented areas and we expanded the program out to be more 
inclusive.
    Mr. Cummings. How do you do with regard to retention of 
minority young people? Certainly, it is nice to get folks in 
the door, but I would like to see them graduate.
    Captain Latta. Yes, sir. We have worked real hard at the 
Naval Academy in general. In fact, the Class of 2009 that just 
graduated, the minority graduation rates were very similar to 
the overall graduation rates for the majority counterparts.
    Mr. Cummings. And what is that?
    Captain Latta. It is about 84.5 percent. I will get the 
exact numbers for the record for you, sir.
    Mr. Cummings. You said 84.5 percent?
    Captain Latta. About 84.5 percent. I will get the numbers 
for you. We have done a very good job over time. I think what 
has helped are several things: the institutional support in two 
areas. Number one is we have an academic center of fully 
staffed professors that is available for everybody, but it has 
also helped out with many of our minority midshipmen who have 
been struggling academically, to help them keep them on track 
and succeed at our school. In fact, their philosophy is really 
that if a young man or woman comes to our school and they are 
trying hard and they want to stay at the Naval Academy and they 
want to graduate, then we will take every resource available to 
try and help them succeed there.
    The other thing we have done is we have put more emphasis 
on many of our mentoring group, minority mentoring groups, like 
National Society of Black Engineers; we had the Black Studies 
Club, Latin American Studies Club, Korean American Club, and 
those types of things, and have tried to provide more outlets 
for many of those young men and women to go study. If they 
don't want to do it in another group, they can do it with folks 
that come from their racial or ethnic background.
    We have increased access to faculty members during the day, 
so if a student has an off period, they can go, for example, 
over to Chauvenet Hall, where we teach math, they can do in 
there and there is a prof in there that will have work problems 
on the board and that type of thing. But the overall idea is 
that we are there to help them succeed, rather than help them 
fail.
    Mr. Cummings. I want to thank you very much. We really 
appreciate your being with us. We encourage you--is this your 
last year?
    Captain Latta. Sir?
    Mr. Cummings. Are you getting ready to retire?
    Captain Latta. I hope not.
    [Laughter.]
    Captain Latta. I hope that is not a clue.
    Mr. Cummings. I just wanted to see if you were alert there.
    Captain Latta. No, I am up for a contract renewal this 
year, but I hope to be around for a while. I have to tell you 
my personal experience is the more I am around many of these 
young men and women, the more I realize it is all about 
opportunity. As you stated last week, everybody on my staff, 
even though I have a small staff just dedicated toward the 
diversity effort, everybody on my staff is very impassioned 
about what they are doing and they are out actively looking for 
kids. They are mentoring.
    I go home most nights between 6:30 and 7:00 at night, and 
half of my lieutenants are still there on the phone talking to 
their kids and their parents. They are there on weekends 
helping to guide tours and do other things, and they travel a 
lot, too. I don't know how they all do it, because they are 
supposed to be on what the Navy calls shore duty, where they 
get a little time off after being at sea for a while. But they 
look at this as their mantra and their legacy to give back to 
the Academy for having had the opportunity to graduate.
    Mr. Cummings. Thank you very much.
    Captain Latta. Yes, sir.
    Mr. Cummings. This hearing is adjourned.
    [Whereupon, at 12:44 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T0631.017
    
    [GRAPHIC] [TIFF OMITTED] T0631.018
    
    [GRAPHIC] [TIFF OMITTED] T0631.019
    
    [GRAPHIC] [TIFF OMITTED] T0631.020
    
    [GRAPHIC] [TIFF OMITTED] T0631.021
    
    [GRAPHIC] [TIFF OMITTED] T0631.022
    
    [GRAPHIC] [TIFF OMITTED] T0631.023
    
    [GRAPHIC] [TIFF OMITTED] T0631.024
    
    [GRAPHIC] [TIFF OMITTED] T0631.025
    
    [GRAPHIC] [TIFF OMITTED] T0631.026
    
    [GRAPHIC] [TIFF OMITTED] T0631.027
    
    [GRAPHIC] [TIFF OMITTED] T0631.028
    
    [GRAPHIC] [TIFF OMITTED] T0631.029
    
    [GRAPHIC] [TIFF OMITTED] T0631.030
    
    [GRAPHIC] [TIFF OMITTED] T0631.031
    
    [GRAPHIC] [TIFF OMITTED] T0631.032
    
    [GRAPHIC] [TIFF OMITTED] T0631.033
    
    [GRAPHIC] [TIFF OMITTED] T0631.034
    
    [GRAPHIC] [TIFF OMITTED] T0631.035
    
    [GRAPHIC] [TIFF OMITTED] T0631.036
    
    [GRAPHIC] [TIFF OMITTED] T0631.037
    
    [GRAPHIC] [TIFF OMITTED] T0631.038
    
    [GRAPHIC] [TIFF OMITTED] T0631.039
    
    [GRAPHIC] [TIFF OMITTED] T0631.040
    
    [GRAPHIC] [TIFF OMITTED] T0631.041
    
    [GRAPHIC] [TIFF OMITTED] T0631.042
    
    [GRAPHIC] [TIFF OMITTED] T0631.043
    
    [GRAPHIC] [TIFF OMITTED] T0631.044
    
    [GRAPHIC] [TIFF OMITTED] T0631.045
    
    [GRAPHIC] [TIFF OMITTED] T0631.046
    
    [GRAPHIC] [TIFF OMITTED] T0631.047
    
    [GRAPHIC] [TIFF OMITTED] T0631.048
    
    [GRAPHIC] [TIFF OMITTED] T0631.049
    
    [GRAPHIC] [TIFF OMITTED] T0631.050
    
    [GRAPHIC] [TIFF OMITTED] T0631.051
    
    [GRAPHIC] [TIFF OMITTED] T0631.052
    
    [GRAPHIC] [TIFF OMITTED] T0631.053
    
    [GRAPHIC] [TIFF OMITTED] T0631.054
    
    [GRAPHIC] [TIFF OMITTED] T0631.055
    
    [GRAPHIC] [TIFF OMITTED] T0631.056
    
    [GRAPHIC] [TIFF OMITTED] T0631.057
    
    [GRAPHIC] [TIFF OMITTED] T0631.058
    
    [GRAPHIC] [TIFF OMITTED] T0631.059
    
    [GRAPHIC] [TIFF OMITTED] T0631.060
    
    [GRAPHIC] [TIFF OMITTED] T0631.061
    
    [GRAPHIC] [TIFF OMITTED] T0631.062
    
    [GRAPHIC] [TIFF OMITTED] T0631.063
    
    [GRAPHIC] [TIFF OMITTED] T0631.064
    
    [GRAPHIC] [TIFF OMITTED] T0631.065
    
    [GRAPHIC] [TIFF OMITTED] T0631.066
    
    [GRAPHIC] [TIFF OMITTED] T0631.067
    
    [GRAPHIC] [TIFF OMITTED] T0631.068
    
                                    

</pre></body></html>
